                                                             O FFICE OF A UDIT S ERVICES , R EGION VI
                                                                1100 C OMMERCE S TREET , R OOM 632
                                                                                  D ALLAS , TX 75242

July 17, 2012


Report Number: A-06-12-00013

Mr. Thomas E. Green
Assistant Director
Office of Community Services
Division of County Operations
Arkansas Department of Human Services
P.O. Box 1437/Slot S-330
Little Rock, AR 72203-1437

Dear Mr. Green:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Central Arkansas Development Council Claimed Allowable
Costs Under a Recovery Act Grant. We will forward a copy of this report to the HHS action
official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-06-12-00013 in all correspondence.

                                             Sincerely,




                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Thomas E. Green


HHS Action Official:

Ms. Jeannie Chaffin, Director
Office of Community Services (OCS)
U.S. Department of Health and Human Services
Administration for Children and Families
5th Floor West
370 L’Enfant Promenade, S.W.
Washington DC 20447
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




 CENTRAL ARKANSAS DEVELOPMENT
COUNCIL CLAIMED ALLOWABLE COSTS
  UNDER A RECOVERY ACT GRANT




                         Daniel R. Levinson
                          Inspector General

                             July 2012
                           A-06-12-00013
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                     INTRODUCTION

BACKGROUND

Community Services Block Grant Program

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998 (CSBG Act),
P.L. No. 105-285, to provide funds to alleviate poverty in communities. Within the U.S.
Department of Health and Human Services, the Administration for Children and Families (ACF),
Office of Community Services, administers the CSBG program. The CSBG program funds a
State-administered network of more than 1,000 local Community Action Agencies (CAA) that
create, coordinate, and deliver programs and services to low-income Americans. The CAAs
provide services and activities addressing employment, education, housing, nutrition, emergency
services, health, and better use of available income. The CSBG program awarded $643 million
in fiscal year (FY) 2008, $1.7 billion in FY 2009, and $689 million in FY 2010.

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, enacted
February 17, 2009, provided an additional $1 billion to ACF for the CSBG program. Recovery
Act funds for the CSBG program were distributed to CAAs using an existing statutory formula.
The primary objective of these funds was to provide assistance to States and local communities,
working through a network of CAAs and other neighborhood-based organizations, for the
reduction of poverty, revitalization of low-income communities, and empowerment of low-
income families and individuals in rural and urban areas to become fully self-sufficient.

Arkansas Department of Human Services

Section 676(a) of the CSBG Act requires each State to designate an appropriate State agency as
the lead agency for carrying out the State’s CSBG program activities. In Arkansas, the
Department of Human Services, Office of Community Services (the State), was the lead agency
during our audit period. The State is responsible for approving Recovery Act grant applications
from CAAs and monitoring them for compliance with program requirements. The State received
$13,595,871 in Recovery Act funds for Arkansas’ CSBG program.

Central Arkansas Development Council, Inc.

Central Arkansas Development Council, Inc. (the Agency), is a private, nonprofit CAA serving
12 counties in Central and South Arkansas. The State awarded the Agency $2,316,436 in CSBG
grant funds for FY 2010 and $3,517,069 in CSBG Recovery Act funds for the period July 1,
2009, through September 30, 2010.




                                               1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State claimed selected CSBG Recovery Act costs on
behalf of the Agency that were allowable under the terms of the grant and applicable Federal
regulations.

Scope

We reviewed $529,983 of the $3,517,069 claimed by the Agency under its CSBG Recovery Act
agreement with the State of Arkansas for the period July 1, 2009, through September 30, 2010.
This review is part of a series of audits planned by the Office of Inspector General to provide
oversight of funds provided through the Recovery Act. We did not perform an overall
assessment of the Agency’s internal control structure. Rather, we reviewed only the internal
controls that pertained to our objective. We performed fieldwork at the Agency’s administrative
office in Benton, Arkansas, in December 2012.

Methodology

To accomplish our objective, we:

   •    reviewed relevant Federal requirements;

   •    confirmed that the Agency was not excluded from receiving Federal funds;

   •    reviewed the terms and conditions of the CSBG Recovery Act agreement between the
        Agency and the State;

   •    reviewed the Agency’s policies and procedures related to the CSBG Recovery Act
        program;

   •    reviewed the minutes from the Agency’s board of directors meetings and organizational
        charts;

   •    reviewed the Agency’s annual Office of Management and Budget (OMB) Circular A-
        133-mandated audit reports for FYs 2008 through 2010;

   •    reconciled the Agency’s CSBG Recovery Act expenditures and fund requests for the year
        ended September 30, 2010, to its accounting records;

   •    judgmentally selected and reviewed 51 transactions totaling $529,983 ($15,520 in salary
        and related costs and $514,463 in nonsalary costs) based on risk factors such as whether
        the transactions:



                                                  2
           o were high dollar,

           o were recorded near the end of or after the grant period, or

           o appeared to be disproportionately allocated to the CSBG Recovery Act program;
             and

   •   discussed our findings with Agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                   RESULTS OF REVIEW

The $529,983 in CSBG Recovery Act costs that the State claimed on behalf of the Agency and
that we reviewed were allowable under the terms of the grant and applicable Federal regulations.
As a result, this report contains no recommendations.

                                     OTHER MATTERS

We found certain internal control issues that we referred to our information technology (IT)
auditors. The IT auditors completed a review of the Agency’s IT system and will issue a
separate report.




                                                3
